July 17, 2021

Supreme Court of the United States
Case No. 20-7595
Petition for Rehearing
Randy T. Thomas — Petitioner

Vs. Petersburg Utility Lines Water Department - Respondent

Case no. 20-7595

Per your correspondence dated July 8, 2021, Attachment A forwards Certification of Service to named
Respondents and Attachment B forwards Certification of Approved Leave Under the Family Medical and
Leave Act.

This Petion for Rehearing is made in Good Faith because I was wrongfully terminated from my position
with the Petersburg Utility Lines Water Department after 17 years of service without due process of
Right to Appeal under Title VII of the Civil Rights Act and in violation of discrimination based on my
disability under the Statures of the ADA (American Disability Act), and the Family Medical and Leave Act.

I swear under Penalty of Perjury the above statements are true.

Randy T. Thomas

Date `--\ —

District of Columbia: SS
Subscribed and sworn to before me, in my presence,
•.1,..\‘\
thisaa.t\klay of
Teresa M. Fletcher, Notary Public, D.C.
My commission expires December 14, 2021.

RECEIVED
JUL 2 7 2021

Stfaceje SIT

Additional material
from this filing is
available in the
Clerk's Office.

